Supreme Court, U.S.
FILED

SEP 2 * 2021
No.

OFFICE OF THE CLERK

1-5871
IN THE
SUPREME COURT OF THE UNITED STATES

STEPHRET R. HARVEY
PETITIONER
V.
WARDEN JASON KENT, et al.
RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO
THE U.S. FIFTH CIRCUIT COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

STEPHRET R. HARVEY
PROSE
DIXON CORRECTIONAL INSTITUTE
P.O. BOX 788/UNIT II: DORM - 12
JACKSON, LA 70748
PHONE # 225-634-1200

QUESTIONS PRESENTED
Was counsel’s performance deficient when counsel failed to conduct an independent
investigation concerning the time limitations once the institution of prosecution had
expired?
Was counsel’s performance deficient when counsel failed to file a motion to quash
because the time limitations of the institution of prosecution had expired?
Was Petitioner denied a full and fair judicial review in State Court where counsel
obstructed the preservation and conservation of the state court record?
Can Petitioner overcome the bar of Harrington v. Richter and Cullen v. Pinholster,
when it is this ineffectiveness of counsel that obstructed the preservation and
conservation of the state court record?

n

LIST OF PARTIES
□ All parties appear in the cation of the case on the cover page.
13 All parties do not appear in the cation of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is subject of this
petition is as follows:

Warden Jason Kent
Dixon Correctional Institute
5568 Hwy 68
Jackson, LA 707748

District Attorney, Leon Cannizzaro
Orleans Criminal District Court
2700 Tulane Avenue
New Orleans, LA 70119

RELATED CASES
Harvey v. Kent, NO. 20-30318, U. S. Court of Appeals for the Fifth Circuit. Judgment.
(July 1, 2021.).
Harvey v. Kent, NO. 12-891 Section "A" (4) (E.D. La., July 22, 2020).
Harvey v. Kent, NO. 12-891 Section "A" (4) (Magistrate Report and Recommendation.
(USDC, E.D. La, March 20,2020).
State v. Harvey, NO. 519-505, Orleans Criminal District Court. (La. S. Ct. 2019-KH0001, Sept. 17, 2019).
State v. Harvey, NO. 519-505, Orleans Criminal District Court. (La. 4th Cir. 2018-K0925, Nov. 11, 2018).
State v. Harvey, NO. 519-505 Orleans Criminal District Court. (Sept. 18, 2018).

in

TABLE OF CONTENTS
QUESTIONS PRESENTED

11

LIST OF PARTIES

111

RELATED CASES

111

TABLE OF CONTENTS

IV

v

INDEX TO APPENDIXES

,vi-vii

TABLE OF AUTHORITIES
OPINIONS BELOW,

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2-4

STATEMENT OF PROCEEDINGS

5-6

STATEMENT OF THE CASE

6-7

REASONS FOR GRANTING THE WRIT

7

OVERTURE

7

CLAIMS

7

PERSUASIONS

7-9

CONCLUSION

9-10
11

PROOF OF SERVICE

iv

INDEX TO APPENDIXES
APPENDIX A: The U.S. Fifth Circuit Court of Appeals denial of Motion for
Rehearing is attached as Appendix “A”. No. No. 20-30318.
APPENDIX B: The opinion of the U.S. Fourth Circuit Court of Appeals and denial
of Certificate of Appealability is attached as Appendix “B”. No. No. 20-30318.
APPENDIX C: The Order of the United States Eastern District Court dismissing
Petition and denying issuance of Certificate of Appealability is attached hereto as
Appendix “C”. No. 19-12891 Section "A" (4)
APPENDIX D: The Report and Recommendation by the U. S. Magistrate Judge in
the Eastern District of Louisiana is attached as Appendix “D”, No. 19-12891 Section
"A" (4)
APPENDIX E: Louisiana Supreme Court order denying post-conviction application
for relief is attached as Appendix “E”. NO. 2019-KH-0001, (La. S. Ct. Sept. 17, 2019).
APPENDIX F: Opinion of the Louisiana Fourth Circuit Court of Appeals denying
writ of review of Post-Conviction Application is attached as Appendix “F”. NO. 2018K-0925 (La. 4th Cir., Nov. 11, 2018).
APPENDIX G: Opinion of the Orleans Criminal District Court denying PostConviction Relief is not available; see Appendix “G”. NO. 519-505. (Sept. 18, 2018).

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES

Barker v. Wingo, 407 U.S. 514, 530-531, 92 S. Ct. 2182, 33 L. Ed. 2d 101 (1972)

7

Cullen v Pinholster, 563 U.S. 170 (2011)

.....8

Harrington v Richter, 562 U.S. 86 (2011)

8

McMann v. Richardson, 397 U. S. 759 90 S. Ct. 1441, 25 L. Ed. 2d 763 (1970

9

State v. Napoleon, 119 So. 3d 238 (5/16/13 La. 5th Cir.)

7

State v. Pleasant, 489 So.2d 1005, 1009 (La. App. 1 Cir. 1986)

7

STATUTES AND RULES
18 USC §2252.
28 U. S. C. § 1254(1).
28 U. S. C. § 1257(a).
28 U.S.C. 2254 (a).
U. S. Constitutional Amendment V.
U. S. Constitutional Amendment VI.
U. S. Constitutional Amendment XIV. Sec. 1.
Louisiana Constitution Art. I, § 2.
Louisiana Constitution Art. I, § 13.
Louisiana Constitution Art. I, § 16.
La. Const. Art. 1, 9.
Louisiana Constitution Art. I, § 19.

vi

LA. R.S 14: 42
LA. R.S 14:44.1
La C. Cr. P. art. 578
La C. Cr. P. art. 579
OTHER:
VOLUMES:
ONE: Appendixes.
TWO: State Review.
THREE: § 2254.

V!1

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
IS For cases from federal courts:
The denial of re-hearing for COA by the United States Court of Appeals appears
at Appendix “A” to the petition and is,
IS not yet published or reported.
The opinion of the United States Court of Appeals denial of COA appears at
Appendix “B” to the petition and is,
El not yet published or reported.
The opinion of the United States district court appears at Appendix “C” to
the petition and is
E3 Reported at Harvey v Kent, 2020 WL 20-37187, U. S. District
Court for the Eastern District of Louisiana. (April 28, 2020).
The Report and Recommendation by the U. S. Magistrate Judge in the Eastern
District of Louisiana appears as Appendix “D”, to the petition and is,
IS Reported at Harvey v Kent, 2020 U.S Dist. LEXIS 75843, U. S. District
Court for the Eastern District of Louisiana. (March 20, 2020).
IS For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix “E” to the petition and is,
El Reported at State v Harvey, 278 So. 3d 958 (La. 2019).
The opinion of the Louisiana Fourth Circuit Court of Appeals appears at
Appendix “F” to the petition and is,
El Unpublished.
The opinion of the Orleans Criminal District Court appears at
Appendix “G” to the petition and is,
IS Unpublished.

1

JURISDICTION
The date on which the United States Fifth Circuit Court of Appeals decided
the case was and the jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
The date on which the Louisiana Supreme Court decided the case was
September 17, 2019, and the jurisdiction of this Court is invoked under 28 U. S. C. §
1257(a).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The following statutory and constitutional provisions are involved in this case.
U. S. Constitutional Amendment VI. Rights of the accused.
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall
have been committed, which district shall have been previously ascertained by law,
and to be informed of the nature and cause of the accusation; to be confronted with
the witnesses against him; to have compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his defence.
U. S. Constitutional Amendment XIV. Sec, 1, [Citizens of the United States.l
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person of
life, liberty, or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

2

Louisiana Constitution Art. L § 2, Due Process of Law
No person shall be deprived of life, liberty, or property, except by due process of law.
Louisiana Constitution Art. L § 13. Rights of the Accused.
When any person has been arrested or detained in connection with the
investigation or commission of any offense, he shall be advised fully of the reason for
his arrest or detention, his right to remain silent, his right against self-incrimination
his right to the assistance of counsel and, if indigent, his right to court appointed
counsel. In a criminal prosecution, an accused shall be informed of the nature and
cause of the accusation against him. At each stage of the proceedings, every person is
entitled to assistance of counsel of his choice, or appointed by the court if he is
indigent and charged with an offense punishable by imprisonment. The legislature
shall provide for a uniform system for securing and compensating qualified counsel
for indigents.
Louisiana Constitution Art. L $ 16. Right to a Fair Trial
Every person charged with a crime is presumed innocent until proven guilty
and is entitled to a speedy, public, and impartial trial in the parish where the offense
or an element of the offense occurred, unless venue is changed in accordance with
law. No person shall be compelled to give evidence against himself. An accused is
entitled to confront and cross-examine the witnesses against him, to compel the
attendance of witnesses, to present a defense, and to testify in his own behalf.
However, nothing in this Section or any other section of this constitution shall
prohibit the legislature from enacting a law to require a trial court to instruct a jury

3

in a criminal trial that the governor is empowered to grant a reprieve, pardon, or
commutation of sentence following conviction of a crime, that the governor in
exercising such authority may commute or modify a sentence of life imprisonment
without benefit of parole to a lesser sentence which includes the possibility of parole,
may commute a sentence of death to a lesser sentence of life imprisonment without
benefit of parole, or may allow the release of an offender either by reducing a life
imprisonment or death sentence to the time already served by the offender or by
granting the offender a pardon.
Louisiana Constitution Art, I. § 19. Right to Judicial Review
No person shall be subjected to imprisonment or forfeiture of rights or property
without the right of judicial review based upon a complete record of all evidence upon
which the judgment is based. This right may be intelligently waived. The cost of
transcribing the record shall be paid as provided by law.
28 U.S.C. 2254: (a):
The Supreme Court, a Justice thereof, a circuit judge, or a district court shall
entertain an application for a writ of habeas corpus in behalf of a person in custody
pursuant to the judgment of a State court only on the ground that he is in custody in
violation of the Constitution or laws or treaties of the United States.

4

STATEMENT OF PROCEEDINGS
Petitioner entered a guilty plea on January 22, 2018, to an amended
indictment of forcible rape and second degree kidnapping and on January 23, 2018
he was sentenced to forty (40) years on each count to run concurrently. No appeal was
sought and the conviction became final on February 22, 2018. On April 2, 2018
Petitioner submitted an application for post-conviction relief claiming (1) Ineffective
Assistance of Counsel and, (2) he was subjected to jeopardy. He filed a supplemental
brief in July, 2018.1 On September 18, 2018, the trial court denied the application
but, Petitioner did not receive a copy of the ruling and was granted an extension to
file writ.2 A timely writ was filed and on November 11, 2018,3 the Louisiana Fourth
Circuit of Appeals denied the writ.4 Petitioner sought writ of review5 and the
Louisiana Supreme Court denied relief on September 17, 20196 holding he had failed
to show ineffective assistance of counsel.
On September 27, 2019 filed petition for federal habeas corpus relief asserting
ineffective assistance of counsel and that the court lacked jurisdiction because his
right to a speedy trial was violated.7 The State filed its answer citing legitimate
delays.

On March

20,

2020,

the

Magistrate

submitted her

Report

and

Recommendation.8 Petitioner filed an Objection to the Report and Recommendation.9

1 Exhibit 1: Original PCR, Memorandum & Supplemental Brief. See Volume Two.
2 Exhibit 2: Appendix G: Denial from District Court. See Volume One.
3 Exhibit 3: Supervisory Writ. See Volume Two.
4 Exhibit 4: Appendix F: Denial of Writ. See Volume One.
5 Exhibit 5: Remedial Writ of Review. See Volume Two.
6 Exhibit 6: Appendix E Denial of Remedial Writ. See Volume One.
7 Exhibit 7: Federal §2254 Petitioner and Memorandum. See Volume Three.
8 Exhibit 8: Appendix D: Report and Recommendation. See Volume One.
9 Exhibit 9: Objection to the Report and Recommendation. See Volume Three.

5

On April 28, 2020, the United States District Court for the Eastern District of
Louisiana adopted the Report and Recommendation and denied relief.10 Petitioner
sought a Certificate of Appealability from the United States Fifth Circuit Court of
Appeals.11 The Fifth Circuit denied his application on June 2, 2021.12 Petitioner filed
for re-hearing13 and was denied on July 1, 2021.14
He now comes before this Honorable Court seeking Certiorari.
STATEMENT OF THE CASE
On March 13, 2014, Petitioner was indicted by an Orleans Parish Grand Jury
for a November 21, 2000 aggravated rape and aggravated kidnapping and a June 13
2003 aggravated rape and aggravated kidnapping. At the time of indictment,
Petitioner was serving sentences for unrelated convictions.
Petitioner originally entered a not guilty plea on May 16, 2014. On January
22, 2018, he entered a guilty plea to an amended indictment of forcible rape and
second degree kidnapping and on January 23, 2018 he was sentenced to forty (40)
years on each count to run concurrently.
REASONS FOR GRANTING THE WRIT
(a) The State of Louisiana has departed from the usual course of judicial
proceedings and the United States Fifth Circuit Court of Appeals has
accepted and sanctioned such a departure by the lower court, as to call for
an exercise of this Courts supervisory power.
(b) The State Court and the United States Fifth Circuit Court of Appeals has
misapplied federal law and this Honorable Court should intervene.
10 Exhibit
11 Exhibit
12 Exhibit
13 Exhibit
14 Exhibit

10:
11:
12:
13:
14:

Appendix C: Denial and Judgment of Petition. See Volume One.
Application for Certificate of Appealability. See Volume Three.
Appendix B: Denial of COA. See Volume One.
Motion for Rehearing. See Volume Three.
Appendix A: Denial of Rehearing. See Volume One.

6

OVERTURE
Respectfully, I Stephret R. Harvey, Petitioner, am a layman of law and do not
proclaim to be a peer of this Honorable Court, nor do I come before this Honorable
Court presumptuously. It is with great humility I pray you will consider the
subsequent claims and persuasions.
CLAIMS
The conviction was obtained in violation of the Fifth, Sixth and Fourteenth
Amendments of the U.S. Constitution. The right to effective assistance of counsel and
due process of law were violated and Petitioner was prejudiced through counsel’s
deficient representation.
PERSUASIONS
Both State and Federal Courts opined that Mr. Harvey had failed to make “a
substantial showing of the denial of a constitutional right.”
In State v. Napoleon, 119 So. 3d 238; 2013 La. App. LEXIS 979 May 16, 2013,
Decided (La. 5th Cir.) the reviewing court found trial counsel was ineffective for
failing to advance his right to a speedy trial. 119 So. 3d 238 at 240, Id.
The constitutional right to a speedy trial attaches when an individual becomes
an accused, either by formal indictment or bill of information, or by arrest and actual
restraint. State v. Pleasant, 489 So.2d 1005, 1009 (La. App. 1 Cir. 1986), writ denied
493 So.2d 1218 (La. 1986). Claims for speedy trial violations are evaluated under the
four-factor test set forth in Barker v. Wingo, 407 U.S. 514, 530-531, 92 S. Ct. 2182.
2192, 33 L. Ed. 2d 101 (1972).

7

In the Report and Recommendation, the Magistrate misapplied the Barker
factors in reaching her conclusion, that is, Petitioner did not support the long delays
by defense counsel or the State. Indeed, how could he acquiesce to the continuances
when counsel had been replaced and then failed to keep Mr. Harvey abreast of the
proceedings.
Many times Petitioner didn’t know he was scheduled for a hearing until the
day of the proceedings. Being newly appointed, counsel had a duty to learn the
specifics concerning his client and failed this duty when he failed to investigate the
limitations in which the court had to bring his client to trial. Competent counsel
would know that a continuance would be of no benefit to his client.
The Magistrate said a plea offer remained open until October 31, 2016, and
afterward the trial court scheduled several pretrial conferences at which either Mr.
Harvey or his attorney failed to appear. The “doubly deferential” standard of review
in Harrington v Richter,562 U.S. 86 (2011), and Cullen v Pinholster, 563 U.S. 170
(2011) is held to review of the State court record at the time. In this case, the State
court record is void of the date or cause for these pretrial conferences. The Magistrate
doesn’t state the reasons for the conferences or their delay. The record offers no
evidence that Petitioner or his attorney were advised of the hearings.
Respectfully, Mr. Harvey cannot be faulted for failure to appear when he is
incarcerated and available and he cannot be held accountable for counsel’s failure to
appear or inform the court.

8

If a prisoner pleads guilty on the advice of counsel, he must demonstrate that
the advice was not "within the range of competence demanded of attorneys in criminal
cases,” McMann v. Richardson, 397 U. S. 759, 771, n. 14, 90 S. Ct. 1441, 25 L. Ed. 2d
763 (1970). It is obvious that counsel was not acting within this range when he failed
to file a motion to quash and allowed Petitioner to plead guilty to the offenses when
the statute of limitations had expired.
Petitioner was prejudiced by the delay in prosecution. The court reset the
proscriptive period of one year in which to bring Mr. Harvey to trial in proceedings
where neither he nor his attorney were present. This maneuver violated Petitioner’s
right to due process and indicates an intent to injure Mr. Harvey by use of an ex parte
process of the court.
The District Attorney used his authority to create an advantage by nolle
prosequi, the indictment numerous times, then re-instating. After such an extended
period, witnesses and evidence in his behalf could not be found and Petitioner would
never be able to prepare a viable defense. Petitioner is subject to the relevant law and
rules of court, including the Rules of Procedure and due process is violated when the
State is not held answerable to the same laws and rules of court.
The limitations on the institution of prosecution had expired under La C.Cr.P.
art. 578. The Court set hearings which Petitioner was not advised. It is the
responsibility of the court to subpoena and Petitioner’s failure to appear was not his
fault. Mr. Harvey could not flee because he was incarcerated and available to appear.
Here, the interruptions of La C.Cr.P. art. 579, created by the State, are not applicable.

9

CONCLUSION
Petitioner, Stephret R. Harvey, prays this Honorable Court will agree that the
nexus of his conviction and the incomplete state court record for review are due to
ineffective assistance of counsel and appellate counsel and that these issues are
debatable among reasonable jurists. He further asserts he has shown exceptional
circumstances justifying relief and prays that this Honorable Court will grant Writ
of Certiorari and remand this to the district court for an evidentiary hearing to
expand the record to allow Petitioner a full and fair judicial review.

2

StejSRre^R. Harvey

10

